HHS/OIG, Audit - "Graduate Medical Education for Dental Residents Claimed
by University of California at San Francisco Medical Center for Fiscal Years
2000 Through 2002," (A-04-04-06012)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Graduate Medical Education for Dental Residents Claimed
by University of California at San Francisco Medical Center for Fiscal Years
2000 Through 2002," (A-04-04-06012)
July 13, 2006
Complete
Text of Report is available in PDF format (1.76 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the University of
California at San Francisco Medical Center (the Hospital) included the
appropriate number of dental residents in its full-time equivalent (FTE) counts
when computing Medicare graduate medical education (GME) payments for fiscal
years (FYs) 2000 through 2002.  The Hospital overstated its direct and indirect
GME claims by a total of $3,904,526 for FYs 2000 through 2002.  The Hospital
inappropriately included a total of 153.88 direct GME FTEs and 159.69 indirect
GME FTEs in the counts for FYs 2000 through 2002.
We recommended that the Hospital (1) file an amended cost
report, which will result in a refund of $3,904,526 associated with FTEs for
which the Hospital did not incur all or substantially all of the training costs;
(2) establish and follow written procedures to ensure that the FTE counts for
residents in nonhospital settings include only those FTEs for which the Hospital
has incurred all or substantially all of the training costs; and (3) determine
whether errors similar to those identified in our review occurred in Medicare
cost reports after FY 2002 and refund any overpayments.  The Hospital generally
disagreed with our findings and recommendations.